No. 19-1063
IN THE

Supreme Court of the United States
JOY DENBY-PETERSON,
Petitioner,
v.
NU2U AUTO WORLD, ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

AMICUS CURIAE BRIEF FOR THIRD CIRCUIT
COURT-APPOINTED AMICUS CURIAE
SUPPORTING NEITHER PARTY

CRAIG GOLDBLATT
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., N.W.
Washington, D.C. 20006
(202) 663-6000
craig.goldblatt@wilmerhale.com

IN THE

Supreme Court of the United States
No. 19-1063
JOY DENBY-PETERSON,
Petitioner,
v.
NU2U AUTO WORLD, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

AMICUS CURIAE BRIEF FOR THIRD CIRCUIT
COURT-APPOINTED AMICUS CURIAE
SUPPORTING NEITHER PARTY
INTEREST OF AMICUS CURIAE1
This brief is submitted by Craig Goldblatt in his
capacity as amicus curiae appointed by the Court of
Appeals for the Third Circuit to defend the judgment of
1

Pursuant to this Court’s Rule 37.6, amicus curiae states
that no counsel for a party authored this brief in whole or in part,
and no entity or person, other than amicus and his law firm, made
a monetary contribution intended to fund the preparation or submission of this brief. Pursuant to this Court’s Rule 37.2(a), amicus
curiae states that counsel to all parties have consented to the filing
of this amicus brief and that it is being filed more than 10 days
before the date on which it is due.

2
the district court before the court of appeals.2 Amicus
does not otherwise have an interest in the disposition of
this petition.
STATEMENT
This petition presents the question whether an entity that is passively retaining possession of property in
which a bankruptcy estate has an interest has an affirmative obligation under the Bankruptcy Code’s automatic stay, 11 U.S.C. § 362, to return that property to
the debtor or trustee immediately upon the filing of the
bankruptcy petition.
As the petition explains, respondents in this case,
Pine Valley Motors and NU2U Auto World, made a
loan to petitioner Joy Denby-Peterson to finance her
purchase of an automobile. After Denby-Peterson
failed to make a required payment, respondents repossessed the car. Denby-Peterson subsequently filed a
Chapter 13 bankruptcy case.
In the bankruptcy court, Denby-Peterson brought
an action seeking to compel respondents to turn over
the car pursuant to 11 U.S.C. § 542(a), the Bankruptcy
Code’s turnover provision. She also sought sanctions
against respondents for violation of the automatic stay,
alleging that respondents’ continued possession of the
car was an act to “exercise control” over estate property barred by 11 U.S.C. § 362(a)(3).
2

Mr. Goldblatt is counsel of record for petitioner City of Chicago in City of Chicago v. Fulton, No. 19-357. As set forth in the
petition for certiorari in Fulton (at 4 n.1), after the Third Circuit
appointed Mr. Goldblatt as amicus curiae in this case, the City of
Chicago retained his firm to seek certiorari in Fulton. Counsel
promptly disclosed that engagement to the Third Circuit. Letter
to Clerk, Denby-Peterson, No. 18-3562 (July 23, 2019).

3
Respondents argued in the bankruptcy court that
Denby-Peterson had executed a waiver of her right to
redeem the car, and thus no longer had a property interest in the car on the petition date. In the alternative, they contended that even if she had such a property interest, they could not be sanctioned for failing to
turn over the car while they were litigating the question whether Denby-Peterson had such a property interest.
The bankruptcy court rejected respondents’ argument that Denby-Peterson had no property interest in
the car (finding that any waiver of the equity of redemption is unenforceable under New Jersey state
law), and it ordered respondents to turn the car over
pursuant to § 542(a). But the bankruptcy court held
that respondents did not violate § 362(a)(3)’s stay of
acts to exercise control over property of the estate by
retaining possession of the car while the court adjudicated the lenders’ turnover defenses. Pet. App. 86a
(“The Creditors will be ordered to turn the Vehicle
over, but will not be sanctioned under section 362 for
failing to turn it over prior to adjudication of the Debtor’s right to redeem the Vehicle.”). The district court
affirmed. Pet. App. 33a-53a.
On appeal to the Third Circuit, respondents elected
not to participate in the appeal. The Third Circuit accordingly appointed Mr. Goldblatt as amicus curiae to
defend the district court’s judgment. Pet. App. 10a11a. The Third Circuit affirmed. Pet. App. 1a-32a.
Amicus understands that, after the Court requested a response to the petition, counsel for respondents
informed the Clerk of this Court that respondents do
not intend to file a response. Amicus accordingly sub-

4
mits this statement to the extent it may assist the
Court in addressing the petition.
ARGUMENT
THE PETITION SHOULD BE HELD FOR CITY OF CHICAGO
V. FULTON
As the petition explains (at 5), the question presented here is the same one that this Court granted
certiorari to address in City of Chicago v. Fulton, No.
19-357. That case was originally scheduled to be argued on April 20, 2020. That argument, however, was
postponed on account of the COVID-19 pandemic.
Amicus understands that the Fulton case is likely to be
argued early in the next Term.
Amicus believes that the Third Circuit correctly
resolved the question presented in this case; that the
Seventh Circuit’s contrary decision in In re Fulton, 926
F.3d 916 (7th Cir. 2019), was wrongly decided; and that
this Court should reverse in Fulton. If the Court does
so, this petition should be denied.
In fairness, however, if this Court were to affirm
the Seventh Circuit’s decision in Fulton, there is no
reason why petitioner in this case, who filed a timely
petition seeking review of the Third Circuit’s judgment, should not obtain the benefit of such a ruling.
Accordingly, amicus respectfully submits that the petition in this case should be held for Fulton. If the Court
reverses the Seventh Circuit’s decision in Fulton, this
petition should be denied. If, however, this Court affirms in Fulton, this petition should be granted, the
judgment of the Third Circuit vacated, and the matter
remanded to the Third Circuit for reconsideration in
light of this Court’s Fulton decision.

5
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be held pending this Court’s decision
in City of Chicago v. Fulton (No. 19-357) and then disposed of as appropriate in light of that decision.
Respectfully submitted.
CRAIG GOLDBLATT
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., N.W.
Washington, D.C. 20006
(202) 663-6000
craig.goldblatt@wilmerhale.com
APRIL 2020

